IN THE SUPREME COURT OF THE UNITED STATES

DAVID FRANK PETRANO, et ux.
V.

Supreme Cowl, U.S.
FILED

DEC 11 2020

DARLENE P. BAYLOR

OFFICE OF THE CLERK

PETITION FOR REHEARING
Supreme Court Rule 44(2) authorizes in relevant part that:
Any petition for the rehearing of an order denying a petition for a writ of
certiorari or extraordinary writ shall be filed within 25 days after the date
of the order of denial ..., but its grounds shall be limited to intervening
circumstances of a substantial or controlling effect or to other substantial
grounds not previously presented.
QUESTION PERTAINING TO GROUNDS AUTHORIZED BY RULE
44(2):
Whether a Court must (shall) (1.) recognize if a lawsuit participant has an
autism spectrum disorder, and (2.) make fact findings addressing what
that person's autism spectrum disorder means in the Court's orders and
judgment ?

INTERVENING CIRCUMSTANCES OF A SUBSTANTIALA OR .
CONTROLLING EFFECT
Florida's Office of State Courts Administrator published Title II Americans
With Disabilities Act ("ADA") Guidelines applicable to Florida judges and justices
that require expert witness(es) to explain to judges and justice what an autism
spectrum disorder is and what it means, and that require different procedures if the
lawsuit participant has an. autism spectrum disorder. Americans with Disabilities
Act of 1990, the ADA Amendments Act of 2008, and 28 CFR Part 35

RECEIVED
JAN - 6 2021

OFFICE OF THE CLERK
SUPREME COURT U.S.

Guidelines for the State Courts System of Florida, APPENDIX B: MENTAL
ILLNESS, INTELLECTUAL DISABILITY, AUTISM, Prepared by Office of the
State Courts Administrator Supreme Court Building 500 South Duval Street
Tallahassee, Florida 32399-1900 850-922-5081 www.flcourts.org Revised:
February 2020, at pg. 23,
https://www.flcourts.org/content/download/217587/file/title-ii-guidelinesrevised.pdf .
Petitioners provided a copy of Petitioner Day-Petrano's autism spectrum disorder
diagnosis to the Trial Judge and served on opposing counsel.
Petitioner Day-Petrano requested a blanket across-the-board extra time "reasonable
modification" to rules of procedure for all deadlines and scheduling of hearing /
trial, and for provision of an autism language interpreter / translator.
The Trial Judge refused to respond and took away Petitioners' horse farm real
it is well estabiished that the failure to provide an interpreter leaves the person
without a legal presence in the lawsuit.
OTHER SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED
When Petitioners notified the Trial Judge of Petitioner Day-Petrano's autism
spectrum disorder, opposing counsel filed a Motion To Appoint A Guardian Ad
Litem and Attorney Ad Litem for Petitioners (both Petitioners).
Opposing counsel's theory is that ADA reasonable accommodations, reasonable
modifications of rules, policies, and practices, auxiliary aids and services, and/or
removal of communication, architectural, and transportation barriers has nothing to
do with incapacity / incompetency.
Petitioner Day-Petrano is autistic by reason of her autism spectrum disorder
medical diagnosis.
The Trial Judge did not consult or hear any experts to explain what an autism
spectrum disorder is and what it means.

2

The Trial Judge did not apply any different procedures having been notified
Petitioner Day-Petrano has an autism spectrum disorder.
The Trial Judge did not provide Petitioner Day-Petrano an autism language
interpreter / transcriber.
disorder means the autistic person, Petition= Day-Pe'=o,
conno': 77TOCC'SS
:--fo7-7 tor 77..ocess]r.7
17'5,
information simultaneously but must process all the details of information
sequentially before she can understand the meaning. Further, while autistics,
Petitioner Day-Petrano, can process static information well enough even to pass a
bar exam, at the same time cannot (by the physical wiring of the autistic brain)
process dynamic information for hours or days after perceiving it. Autistic people,
Petitioner Day-Petrano, understand the literal words spoken and written and do not
and cannot "interpret" the hidden meaning between the words on the basis of
grasping "the backdrop" of "the big picture" from one or two details and/or
"reading" facial expressions, gestures, body language, social context, of the
fluctuation in the voice.
autisrr

In sum, autistic Petitioner Day-Petrano communicates literally and sequentially in
order to understand the meaning, in contrast to the non-autistic Trial Judge and
opposing lawyer communicating inferentially and simultaneously, resulting in
misinterpretations on both sides (an inevitable result of the physical wiring of the
autistic brain).
Petitioners have a Due Process right to meaningfully understand what is being
written in opposing lawyer's pleadings and the Trial Judge's Orders and
instructions and what is being spoken in hearings and at trial in this lawsuit and in
any lawsuit.
An autism spectrum disorder, absent the provision of the Title II ADA relief
Petitioners requested, prevented Petitioner Day-Petrano from being provided with
meaningful notice, and a meaning opportunity to be heard in a meaningful time
and a:meaningful manner in this lawsuit.
Further, absent blanket extra time for delayed and sequential processing and
provision of an autism language interpreter / translator, Petitioner Day-Petrano
3

would not be able to get effective assistance of any counsel in this or any lawsuit,
either.
These circumstances of an autism spectrum disorder would necessarily define
Petitioner Day-Petrano as incompetent absent the use of the different procedures
Florida's implementing Title II ADA Guidelines require for lawsuit participants
with an autism spectrum disorder — blanket extra time and provision of an autism
language interpreter / translator.
Without the blanket extra time and provision of an autism language interpreter /
translator, Petitioner Day-Petrano was denied legal presence in this lawsuit and
such lack of legal presence made a "Takings" of her home and horse farm real
property.
This is so because ADA reasonable accommodations, reasonable modifications of
rules, policies, and practices, auxiliary aids and services, and/or removal of
communication, architectural, and transportation barriers have everything to do
with removing a lawsuit participant's incapacity / incompetency.
Petitioners always lose every case because Petitioner Day-Petrano is autistic.
Petitioners are not alone. That's why Florida's Title II ADA Guidelines SAY
autism spectrum disorders require different procedures required by federal law,
Title II of the ADA.
Autism spectrum disorders are a matter of public importance for every civil and
criminal case, administrative proceeding in every court in this Country. •
Dated: December 31, 2020
Respectfull
se
r~Cnb/pro
`
David F.
2501 SE 143rd Way
Starke, FL 32091
(727) 808-0446

1V,r7ry

pro
- •

2501 SE 143' Way
Starke, FL 32091
4

(727) 237-6778
CERTIFICATE OF SERVICE
I hereby certify that on December 31, 2020 I deposited a copy of this Petition for
Rehearing n the U.S> Mail first class postage prepaid addressed to: Ronald A. Hertel,
Esq., Chiumento Sellis Dwyer, P.L., 145 City Place, Suite 301, Palm Coast, FL 32164, counsel
ne P. Baylor.
for the P '11

David F. Petrano

5

